       ACCOUNTING FOR ECONOMY ACT ORDERS BY THE NAVY
            WORKING CAPITAL FUND ORGANIZATIONS


Report No. D-2001-160                          July 18, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASN (FM&C)            Assistant Secretary of the Navy (Financial Management and
                        Comptroller)
SPAWAR                Space and Warfare Systems Command
WCF                   Working Capital Fund
                      Office of the Inspector General, DoD
Report No. D-2001-160                                                     July 18, 2001
  (Project No. D1999FD-0067)




       Accounting for Economy Act Orders by the Navy Working
                      Capital Fund Organizations

                               Executive Summary

Introduction. This audit was performed in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994. This is the
first report from our audit of DoD accounts payable and addresses an Assistant
Secretary of the Navy (Financial Management and Comptroller) policy that affects the
Navy working capital fund accounting and reporting requirements for all of its
organizations. Accounts payable is used to record amounts owed for goods and
services received but for which payment has not been made. As of
September 30, 2000, the Navy working capital fund reported accounts payable of
$986 million. That amount did not include accounts payable arising from Economy Act
orders placed with the Navy working capital fund using directly cited $1.15 billion of
customer funds which should have been recorded and accounted for on a reimbursable
basis. The Economy Act, as codified in section 1535, title 31, United States Code,
provides a Federal agency or major organizational unit with the authority to place
orders for goods or services with another Federal agency or major organizational unit.
Orders placed using directly cited funds are posted, accounted for, and disclosed in the
financial statements of the customer.

Objectives. Our objective was to determine whether the accounts payable line of the
DoD Agency-Wide financial statements was prepared in accordance with Office of
Management and Budget Bulletin No. 97-01, “Form and Content of Agency Financial
Statements,” October 16, 1998, as amended January 25, 1999. We also examined
internal controls and compliance with applicable laws and regulations. Specifically, we
reviewed DoD agency and Military Department compliance with laws and regulations
related to the working capital fund, acceptance of Economy Act orders, and accounting
and reporting requirements. We also reviewed the management control program as it
related to Navy working capital fund acceptance of Economy Act orders.

Results. During FY 2000, the Space and Warfare Systems Command Research,
Development, Test and Evaluation Centers and the Naval Air Warfare Center,
Weapons Division (working capital fund activities), accepted Economy Act orders from
customers that directly cited their appropriations instead of placing the orders on a
reimbursable basis. That practice was not observed in our audit of working capital
fund activities in the Army and the Air Force. According to the Office of Accounting
Policy, Office of the Under Secretary of Defense (Comptroller), the Navy practice was
not in accordance with the intent of the DoD Financial Management Regulation,
volume 11A, Reimbursable Operations, Policy and Procedures, and volume 11B,
Reimbursable Operations, Policy and Procedures – Working Capital Funds. As a
result, Economy Act orders using directly cited funds were not accounted for and
reported in the Navy working capital fund financial statements creating a $1.15 billion
material misstatement of the program cost and work performed by the Navy working
capital fund organizations. See the Finding section for details.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) revise the DoD Financial Management Regulation, Volume 11A,
Reimbursable Operations, Policy and Procedures, and Volume 11B, Reimbursable
Operations, Policy and Procedures – Working Capital Funds accounting policies to
require that working capital fund transactions be fairly and fully disclosed in the
financial statements. In addition, we recommend that the Assistant Secretary of the
Navy (Financial Management and Comptroller) issue procedures for accounting for all
Navy working capital fund transactions that would ensure fair and full disclosure of the
operational cost of the working capital fund.

Management Comments. We provided a draft of this report to management on
March 29, 2001. No written response was received from the Under Secretary of
Defense (Comptroller) or the Assistant Secretary of the Navy (Financial Management
and Comptroller). Therefore, we request that the Under Secretary of Defense
(Comptroller) and the Assistant Secretary of the Navy (Financial Management and
Comptroller) provide comments by August 17, 2001.




                                           ii
Table of Contents

Executive Summary                            i

Introduction
     Background                              1
     Objectives                              1

Finding
     Acceptance of Economy Act Orders        2


Appendixes
     A. Audit Process
         Scope                               6
         Methodology                         7
         Management Control Program Review   7
         Prior Coverage                      8
     B. Report Distribution                  9
Background
     The Chief Financial Officers Act of 1990, as amended by the Federal Financial
     Management Act of 1994, requires audits by the Inspectors General of financial
     statements prepared. This is the first report from our audit of DoD accounts
     payable and this report addresses an Assistant Secretary of the Navy (Financial
     Management and Comptroller) policy that affects the Navy working capital fund
     accounting and reporting requirements for all of its organizations.

     In conducting our audit, we used the Federal Financial Management System
     methodology developed by the General Accounting Office. This system
     incorporates a review of accounts payable transactions by cycle, functions,
     processes, and systems that result in the posting of the accounts payable in the
     United States Standard General Ledger. As of September 30, 2000, the Navy
     working capital fund reported accounts payable in the amount of $986 million.
     That sum did not include accounts payable resulting from Economy Act orders
     placed with the Navy working capital funds using directly cited funds. The
     Economy Act, as codified in section 1535, title 31, United States Code
     (31 U.S.C. 1535), grants the authority to a Federal agency or major
     organizational unit to place orders for goods or services with another Federal
     agency or major organizational unit. Orders placed using directly cited funds
     are posted, accounted for, and disclosed in the financial statements of the
     customer.

Objectives
     Our objective was to determine whether the accounts payable line of the DoD
     Agency-Wide financial statements was prepared in accordance with Office of
     Management and Budget Bulletin No. 97-01, “Form and Content of Agency
     Financial Statements,” October 16, 1998, as amended January 25, 1999. We
     also examined internal controls and management compliance with laws and
     regulations. Specifically, we reviewed DoD agency and Military Department
     compliance with applicable laws and regulations related to the working capital
     fund (WCF), acceptance of Economy Act orders, and the accounting and
     reporting requirements applicable to the WCF. We also reviewed the
     management control program as it related to Navy WCF acceptance of Economy
     Act orders.




                                         1
           Acceptance of Economy Act Orders
           During FY 2000, the Space and Warfare Systems Command (SPAWAR)
           Research, Development, Test and Evaluation Centers and the Naval Air
           Warfare Center, Weapons Division, accepted Economy Act orders
           totaling $1.15 billion from customers that directly cited their
           appropriations instead of accepting the orders on a reimbursable basis.
           That practice was not observed in our audit work in the WCF of the
           Army and the Air Force. The two Navy organizations accepted the
           $1.15 billion in orders because the Assistant Secretary of the Navy
           (Financial Management and Comptroller) (ASN [FM&C]) directed Navy
           WCF organizations to accept Economy Act orders for goods or services
           that included directly cited funds of the customer. According to the
           Office of Accounting Policy, Office of the Under Secretary of Defense
           (Comptroller), the Navy practice was not in accordance with the intent of
           section 2208, title 10, United States Code (10 U.S.C. 2208) and the
           DoD Financial Management Regulation, volume 11A, Reimbursable
           Operations, Policy and Procedures, and volume 11B, Reimbursable
           Operations, Policy and Procedures – Working Capital Funds. As a
           result, Economy Act orders using directly cited funds were not
           accounted for and reported in the Navy WCF financial statements. That
           created a $1.15 billion material misstatement of the program cost and
           work performed by the Navy WCF organizations.

Overall Statutes and DoD Financial Management Policies
    The Navy WCF accounting policy for accepting Economy Act orders using
    directly cited funds is not consistent with the WCF statute and DoD Financial
    Management Regulations. However, ASN (FM&C) personnel stated that the
    statutes and DoD Financial Management Regulation were unclear and did not
    specifically prohibit the use of directly cited funds for Economy Act orders.
    The result of financing an order by using directly cited funds is that the WCF is
    not directly reimbursed the full cost of supplies and industrial-type and
    commercial-type services rendered to the customer. Thus, the transactions are
    not entered and managed in the accounting records of the servicing WCF.


Working Capital Funds
    Section 2208, title 10, United States Code, authorizes the Secretary of Defense
    to establish working capital funds to control and account more effectively for the
    cost of programs and work performed within DoD. According to 10 U.S.C.
    2208, WCF supply management and industrial-type and commercial-type
    service activities are required to satisfy reporting requirements by fully
    disclosing the full cost of operations. Full accounting occurs when the WCF
    initially pays the cost of operations, including services and work performed.
    The customer subsequently reimburses the WCF using available appropriations.
    In addition, the 10 U.S.C 2208 states that funds and activities managed through
    the WCF must be separately accounted for, reported, and audited.

                                        2
Economy Act Orders
    Section 1535, title 31, United States Code, codifies the Economy Act which
    authorizes a Federal agency or major organizational unit to place orders for
    goods or services with another Federal agency or unit. The supplying agency or
    organization can either directly provide the goods or services or acquire them by
    contract. The order placed and accepted by the supplying agency or
    organization constitutes an obligation against the appropriation of the ordering
    agency or unit. When the goods or services are received, the requesting
    organization is required to make prompt payment to the supplying agency or
    organization, unless payment was made in advance. Section 1535, title 31,
    United States Code, does not stipulate that Economy Act orders must be made
    strictly on a reimbursable basis.


DoD Financial Management Regulation
    DoD policies and procedures for reimbursable operations and Economy Act
    orders are in DoD Regulation 7000.14-R, DoD Financial Management
    Regulation, volume 11A, “Reimbursable Operations, Policy and Procedures,”
    December 1999. Chapter 3, “Economy Act Orders,” April 2000 states that the
    requesting agency must obligate the entire amount of the order once the order is
    accepted by the supplying agency. Economy Act orders may be accepted and
    performed by either appropriated fund or WCF organizations. However, if the
    order is placed with and accepted by a WCF organization, reimbursable costs
    are to be determined in accordance with volume 11B of the DoD Financial
    Management Regulation. Volume 11B, “Reimbursable Operations, Policy and
    Procedures – Working Capital Fund,” December 1994, Chapter 52, “Budgetary
    Resources,” defines Economy Act orders as requisitions and orders for goods or
    services to be furnished on a reimbursable basis. The DoD Financial
    Management Regulation does not require a WCF to accept Economy Act orders
    on a strictly reimbursable basis. However, the DoD Financial Management
    Regulation does not provide accounting policy on how the WCF should
    recapture all costs that would ensure fair and full disclosure of the cost of
    operations in the financial statements.

Reimbursement
    According to 10 U.S.C 2208, WCF organizations expend their own funds to pay
    for ordered goods and services, and they should be subsequently reimbursed for
    those costs by the appropriation cited in the Economy Act order. The Army and
    the Air Force WCF organizations follow that practice. In our opinion, that
    practice is more efficient and effective method to account for and report the
    results of WCF operations separately from appropriated fund organizations.
    Separate accounting is accomplished when the WCF organization records and
    posts transactions in the WCF general ledger.



                                        3
Navy Interpretation of Accepting Economy Act Orders
    Personnel from the Civilian Resources and Business Affairs Division and
    Budget Policy and Procedures Division of the ASN (FM&C) stated that
    31 U.S.C 1535, 10 U.S.C 2208, and the DoD Financial Management
    Regulation were unclear and did not prohibit WCF organizations from accepting
    Economy Act orders using directly cited funds. The Navy is correct on that
    point. However, the reporting requirements of 10 U.S.C 2208 were not met.
    The acceptance of Economy Act orders using directly cited funds effectively
    masks the activities of the fund when the cost of work performed and paid with
    directly cited funds is not accounted for and recorded in the WCF financial
    records. Thus, the Navy practice circumvents a full and accurate reporting of
    its WCF operations. Such full and accurate reporting of WCF operations is
    most efficiently and effectively accomplished when Economy Act orders are
    filled on a reimbursable basis and the WCF records all transactions in its
    accounting systems. Although we believe WCF activities should perform all
    work on a strictly reimbursable basis, the current statutes and the DoD Financial
    Management Regulation do not prohibit acceptance of Economy Act orders
    using directly cited funds. However, the WCF must fully satisfy the reporting
    requirements of 10 U.S.C. 2208.

Summary
    The SPAWAR and Naval Air Warfare Center organizations reported more than
    $1.15 billion in Economy Act orders containing multi-year directly cited funds
    in FY 2000. The practice of accepting Economy Act orders with directly cited
    funds was not limited to those two organizations and existed at other Navy WCF
    organizations as well. Personnel in the Office of the ASN FM&C believed that
    the use of directly cited funds for Economy Act orders to WCF organizations
    was not prohibited by the statutes and the DoD Financial Management
    Regulation. We believe the intent of the statutes and the DoD Financial
    Management Regulation could best be met if Economy Act orders were accepted
    on a reimbursable basis. Under that practice, all Economy Act orders and costs
    related to the WCF would be accounted for and reported in the WCF financial
    statements. Unless the Office of the Under Secretary of Defense (Comptroller)
    and ASN FM&C implement policies and procedures to account for all WCF
    transactions, the Navy practice will continue to materially misstate assets,
    liabilities, revenues, and expenses.




                                        4
Recommendations
    Revised Finding and Revised Recommendations. As a result of a preliminary
    response from the Navy, we revised the draft finding to exclude a discussion of
    carryover and clarified our discussion on the statutes and regulations pertaining
    to Economy Act orders and the working capital fund. Accordingly, we also
    revised Recommendations 1. and 2.

    1. We recommend that the Under Secretary of Defense (Comptroller) revise
    the DoD Financial Management Regulation, volume 11A, Reimbursable
    Operations, Policy and Procedures, and volume 11B, Reimbursable Operations,
    Policy and Procedures – Working Capital Funds to provide accounting policy
    which would require the fair and full disclosure of all transactions in the
    working capital fund financial statements.

    2. We recommend that the Assistant Secretary of the Navy (Financial
    Management and Comptroller) issue procedures that would account for and
    report all transactions related to its supply and industrial-fund and commercial-
    type activities in the working capital fund financial statements.

Management Comments Required
    The Under Secretary of Defense (Comptroller) and Assistant Secretary of the
    Navy (Financial Management and Comptroller) did not comment on the draft of
    this report. We request that the Under Secretary of Defense (Comptroller) and
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    provide comments on the final report.




                                         5
Appendix A. Audit Process

Scope
    Work Performed. We reviewed SPAWAR and the Naval Air Weapons Center
    Research, Development, Test and Evaluation WCF organizations, and related
    funding documents for goods and services received by the organizations. At
    each location visited, we judgmentally sampled 10 FY 1999 contracting actions,
    valued at $25,000 or more, and examined the contract terms and clauses related
    to the payments made to contractors for goods or services provided by the WCF
    to its customers. In FY 2000, SPAWAR Research, Development, Test and
    Evaluation Centers at Charleston, South Carolina, and San Diego, California,
    accepted new orders from its customers totaling $2,420,794,000. The Centers
    reported reimbursable orders of $1,533,299,000 and orders containing directly
    cited funds of $887,495,000. In FY 2000, the Naval Air Weapons Center’s
    Research, Development, Test and Evaluation organizations at China Lake,
    California, and Point Mugu, California, accepted new orders totaling
    $1,067,450,000. The Centers reported $804,228,000 in reimbursable orders
    and accepted $263,222,000 of orders with directly cited funds. We discussed
    those contracts and funding documents with SPAWAR, Naval Air Weapons
    Center, and personnel in the Office of ASN (FM&C) to determine the policies
    and procedures related to those contracts and funding documents. Based on
    their explanations, we reviewed the applicable statutes, DoD Financial
    Management Regulation, and Navy policies and procedures.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

           • FY 2001 Corporate Level Goal 2: Prepare now for an uncertain
             future by pursuing a focused modernization effort that maintains U.S.
             qualitative superiority in key warfighting capabilities. Transform the
             force by exploiting the Revolution in Military affairs, and reengineer
             the Department to achieve a 21st century infrastructure. (01-DoD-2)

           • FY 2001 Subordinate Performance Goal 2.3: Streamline theDoD
             infrastructure by redesigning the Department’s support structure and
             pursuing business practice reforms. (01-DoD-2.3)

           • FY 2001 Subordinate Performance Goal 2.5: Improve
             DoDfinancial and information management. (01-DoD-2.5)

           • FY 2001 Performance Measure 2.3.8: Defense Working Capital
             Fund (DWCF) Net Operating Results (01-DoD-2.3.8)



                                       6
           • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
             on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           • Acquisition Management Area. Objective: Internal reinvention.
             Goal: Define requirements and establish and implement a cost
             accounting system that provides routine visibility through activity
             based costing and management. (ACQ3-2)

           • Financial Management Area. Objective: Reengineer Business
             Practices. Goal: Provide policies and procedures that are clear and
             simple, and which ensure compliance with existing laws and
             regulations. (FM 2-5)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    Use of Computer-Processed Data. Computer-processed data were not used in
    this audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from October 1999 through March 2001 in accordance with audit standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We did our work in accordance with generally
    accepted Government auditing standards except that we were unable to obtain an
    opinion on our system of quality control. The most recent external quality
    control review was withdrawn on March 15, 2001, and we will undergo a new
    review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures, August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We identified
    material control weaknesses for the Navy WCF as defined by DoD

                                       7
    Instruction 5010.40. Navy WCF financial statements were materially misstated
    by $1.15 billion when Navy WCF organizations accepted Economy Act orders
    using directly cited funds. The Navy did not identify the material weakness
    because it resulted from Navy policy. Recommendations 1. and 2., if
    implemented, will ensure that Navy working capital fund organizations will
    fairly and fully all transactions in the financial statements, and thus, will correct
    the material weakness.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports.




                                          8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Comptroller (Program/Budget)
  Deputy Chief Financial Officer

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations
Office of Management and Budget




                                           9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Governmental Affairs
House Subcommittee on Government Efficiency, Financial Management, and
   Intergovernmental Relations, Committee on Government Reform
 House Subcommittee on National Security, Veterans Affairs, and International
   Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
   Government Reform




                                         10
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Brian M. Flynn
Byron B. Harbert
David M. Barbour
Kevin M. Roths
Lusk Penn
